ATTACHMENT A

APPENDIX “A”

Appendix A
Courts involved in Appellants Complaint against defendants
1. Los Angeles County Superior Court case No. BC669432
2. Court of Appeal of the Second Appellate District Division
One Case No. B295836
3. Supreme Court of California Case No. S263334

Filed 6/2/20 Aguilar v. Specialized Loan Servicing CA2/1

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying o n opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). Tni!is opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION ONE

GUILLERMINA AGUILAR,
Plaintiff and Appellant,

B295836
(Los Angeles County
Super. Ct. No. BC669432)

v.

SPECIALIZED LOAN SERVICING,
LLC, et al.,
Defendants and Respondents.

APPEAL from a judgment of the Superior Court of Los
Angeles County, Barbara M. Scheper, Judge. Affirmed.
Guillermina Aguilar, in pro. per., for Plaintiff and
Appellant.
Ballard Spahr, Marcos D. Sasso and Tanya M. Taylor for
Defendants and Respondents.

FACTUAL BACKGROUND
Guillermina Aguilar and her husband obtained a $115,000
mortgage to purchase their home in July 2006.1 Following the
financial crisis, the loan was sold several times in the secondary
market. The servicing rights were ultimately sold to defendant
Specialized Loan Servicing (Specialized).
At some time, Aguilar must have missed payments or
stopped making payments on the loan altogether because her
complaint alleges she was sent a notice of default by Specialized
indicating they intended to foreclose.
This apparently prompted Aguilar to sue Specialized in
superior court. The complaint added Wells Fargo Bank, N.A,
(Wells Fargo) as the defendant note-holder. We refer to
Specialized and Wells Fargo as “Defendants.” Aguilar was selfrepresented below. Her complaint, filed in July 2017, alleged
four causes of action: (1) declaratory relief; (2) quiet title; (3)
negligence and fraud; and (4) accounting.
Defendants moved for judgment on the pleadings, which
the trial court granted with leave to amend. Defendants’
subsequent demurrer to the first amended complaint was
sustained, again with leave to amend. The second amended
complaint (SAC), the complaint operative on this appeal, alleged
the same four causes of action.
Erroneously captioned “First Amended Complaint,” the
SAC alleges the following facts. The loan originated with
Bankerswest Funding Corporation which then sold the note to
“G.M.A.C. Mortgage.” Specialized was the servicer. Specialized

1 Only Guillermina Aguilar, and not her husband, is
involved in this case.

2

sent Aguilar a “Notice of Default and Intention to Foreclose”
identifying “two missing payments.” Aguilar requested
Defendants provide her with the “Note and related loan
documents,” but they allegedly refused. Aguilar claims if she was
just provided with these documents she could prove Defendants
do not have the legal authority to collect her monthly mortgage
payments. When she contacted Specialized, they indicated
another servicer “did not transfer[ ]” these two payments when
that servicer transferred the servicing rights to Specialized. But,
when she contacted the previous servicer, its representatives said
they did transfer these two payments. She filed this complaint
after failing to get answers from representatives from Wells
Fargo.
The trial court sustained Defendants’ demurrer to the SAC.
It found all causes of action were uncertain and ambiguous. The
SAC pled no facts relevant to a declaratory relief or quiet title
cause of action; no duty was alleged to support the negligence
cause of action; no misrepresentation was alleged to support a
claim for fraud; and the SAC made no changes to the uncertain
and ambiguous claim for an accounting.
Aguilar timely appealed.
DISCUSSION
A.

Standard of Review
This court applies two separate standards of review on
appeal from a judgment of dismissal after a demurrer is
sustained without leave to amend. (Blank v. Kirwan (1985) 39
Cal.3d 311, 318.) We first review the complaint de novo to
determine whether the complaint alleges facts sufficient to state
a cause of action under any legal theory or to determine whether
the trial court erroneously sustained the demurrer as a matter of

3

law. (Cantu v. Resolution Trust Corp. (1992) 4 Cal.App.4th 857,
879.) Second, we determine whether the trial court abused its
discretion by sustaining the demurrer without leave to amend.
(Ibid.) Under both standards, appellant has the burden of
demonstrating that the trial court erred. (Ibid.) While we
assume the truth of the complaint’s factual allegations, we do not
assume its legal conclusions. (Mendoza v. JPMorgan Chase
Bank, N.A. (2016) 6 Cal.App.5th 802, 810.) An abuse of
discretion is established when “there is a reasonable possibility
the plaintiff could cure the defect with an amendment.”
(Schifando v. City of Los Angeles (2003) 31 Cal. 4th 1074, 1081.)
B.

The Second Amended Complaint was Properly
Dismissed
Aguilar’s brief is hard to follow. The paragraph numbers
appear arbitrary. Nor does it contain a single legal citation.
While we recognize Aguilar is self-represented on appeal, she is
nevertheless bound by California Rules of Court, rule
8.204(a)(1)(B) which requires each point in a brief to be supported
“by argument and, if possible, by citation of authority.”
California Rules of Court, rule 8.204(a) is based on fairness and
efficiency. It is fair because the respondent is entitled to its
opportunity to answer the appellant’s arguments. (People v.
Roscoe (2008) 169 Cal.App.4th 829, 840.) It is efficient because
we cannot “act as counsel” for either party to an appeal and
search the record to discover errors not identified by the briefs.
(Fox v. Erickson (1950) 99 Cal.App.2d 740, 742.)
A fundamental principle of appellate review will also shape
the following analysis. The judgment of the lower court is
presumed correct. (Denham v. Superior Court (1970) 2 Cal.3d
557, 564.) Failure to substantiate argument with legal authority

4

and with appropriate citations to the record can make it
impossible for an appellant to “affirmatively demonstrate error
on the record before the court.” (In re Marriage of Falcone &
Fyke (2008) 164 Cal.App.4th 814, 822.)
As far as we can tell, the theory of Aguilar’s brief is the
following. Specialized has not shown to her satisfaction it is “in
fact the ‘Lien Holders in Due Course’ ” of her mortgage.
Specialized has refused to show “the original loan documents.”
Specialized is thus “trying to claim something that is not theirs.”
Specialized has been collecting payments “that are not due on the
loan,” because the loan was “most likely paid off by a Private
Mortgage Insurance when this Mortgage Account was being
served by GMAC.”
We granted Aguilar’s motion to augment the record on this
appeal. One document attached to the motion is Specialized’s
objection to confirmation of a Chapter 13 bankruptcy plan
naming “Jose Joel Aguilar AKA Jose Talavera DBA Aguilar
Clothing Business and Guillermina Aguilar” as debtors. The
objection, filed in the United States Bankruptcy Court, Central
District of California, attaches Specialized’s proof of claim for a
debt of $90,349.34 secured against the real property at issue in
this appeal. Specialized is identified as “servicer.” Another
document appears to be a photocopy of the original deed of trust
recorded against the property, in the principal amount of
$115,000. A third appears to be a photocopy of a recorded
“Assignment of Deed of Trust” to Wells Fargo Bank, N.A. This
document appears to be electronically available (it is stamped
“eRecorded”).
Aguilar submitted these documents. Her brief states: “I
made the request for ‘Proof of Claim’ in hopping [sic] that my

5

request will help me to find the truth about this Mortgage
Aguilar fails to appreciate these documents explain away the
mystery of why a company called “Specialized” is attempting to
collect her mortgage payments. The proof of claim she attached
to her motion identifies Specialized as her mortgage’s “servicer.”
Those documents also explain why her home is in foreclosure:
she owes about $90,000 on a $115,000 mortgage and she is not
current on her payments.2
With these additional facts in mind, we now review each of
the SAC’s causes of action and search Aguilar’s brief to determine
whether she offers reasons to rebut the presumption the trial
court rightly dismissed her complaint.
Her first cause of action is for declaratory relief.
Declaratory relief is available if the complaint pleads an actual
controversy involving justiciable questions relating to the rights
or obligations of a party. (See Tiburon v. Northwestern P. R. Co.
(1970) 4 Cal.App.3d 160, 170.) Because Aguilar’s brief does not
explain what actual controversy she asked the trial court to

2 During oral argument, Aguilar claimed she possessed a
document demonstrating the property was “reconveyed” to her.
This surprised opposing counsel. We deferred oral argument and
ordered Aguilar to supplement the record with this document and
provide supporting briefing. Defendants filed responsive briefing.
We have reviewed the documents Aguilar submitted as well as
her briefing. They do not change our analysis. Among the
documents Aguilar submitted is a document entitled “Full
Reconveyance.” This document, dated January 28, 2013 and
recorded February 14, 2013, states: “[The Trustee] does hereby
reconvey [the property] to the person or persons legally entitled
thereto . . . .” This document does not indicate the property was
reconveyed to Aguilar, as she claimed during argument.

6

address and how a ruling from that court could settle that
controversy, the trial court properly dismissed this cause of
action. Aguilar’s brief also does not explain what new facts a
third amended complaint could allege as is necessary to show the
trial court abused its discretion.
Her second cause of action is for quiet title. This cause of
action was properly dismissed without leave to amend because
“[a] borrower may not. . . quiet title against a secured lender
without first paying the outstanding debt on which the mortgage
or deed of trust is based.” (Lueras v. BAC Home Loans Servicing,
LP (2013) 221 Cal.App.4th 49, 86.) Neither the SAC nor
Aguilar’s briefing indicates she has paid the outstanding balance
of her loan. In fact, the documents she attached to her motion to
augment indicate otherwise.
Her third cause of action is for negligence and fraud. We
address each separately since they are distinct causes of action.
A cause of action for negligence requires the complaint
plead the existence of a duty of care, breach, causation, and
damages. (Melton v. Boustred (2010) 183 Cal.App.4th 521, 529.)
The SAC does not plead the existence of a duty of care.
Her cause of action for fraud also fails. A cause of action
for fraud must plead the existence of a misrepresentation, made
by the defendant knowing it was false; intent to induce the
plaintiff to rely; justifiable reliance; and damage. {Lazar v.
Superior Court (1996) 12 Cal.4th 631, 638.) The SAC does not
plead either defendant made a misrepresentation and nor does
Aguilar’s brief identify how the SAC may be cured with a third
leave to amend.
Her fourth cause of action is for an accounting. A cause of
action for an accounting requires a showing that some balance is

7

due the plaintiff that can only be ascertained by an accounting.
(Brea v. McGlashan (1934) 3 Cal.App.2d 454, 460.) An
accounting is necessary only if determining the amount owed the
plaintiff is so complicated that an ordinary legal action seeking a
fixed sum is impracticable. (Civic Western Corp. v. Zila
Industries, Inc. (1977) 66 Cal.App.3d 1, 14.) Nothing alleged in
the SAC would require the equitable intervention of an
accounting, and nor does Aguilar’s brief argue otherwise.
We hold the trial court properly sustained Defendants’
demurrer to the SAC. Moreover, Aguilar offers no new factual
allegations to merit an opportunity to further amend her
complaint or to demonstrate that the trial court abused its
discretion. She has had two opportunities to state a viable claim
against these defendants and has fallen far short of the mark.

8

DISPOSITION
The order dismissing the action is affirmed. The parties
are to bear their own costs on appeal.
NOT TO BE PUBLISHED

WHITE, J *

We concur:

CHANEY, J.

BENDIX, Acting P. J.

* Judge of the Los Angeles Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution.

9

L'

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION 1

COURT OF APPEAL - SECOND BIST.

FILED
Jun 24, 2020
GUILLERMINA AGUILAR,
Plaintiff and Appellant,
v.
SPECIALIZED LOAN SERVICING LLC,
Defendant and Respondent.

DANIEL P. POTTER, Clerk

JLozano

B295836
Los Angeles County Super. Ct. No. BC669432

THE COURT:
Petition for rehearing is denied.

WHITE, J *

CHANEY, J..

/

BENDIX, Acting P.J.

*Judge of the Los Angeles Superior Court, assigned by the Chief Justice
pursuant to article VI, section 6 of the California Constitution.

Deputy Clerk

SUPREME COURT

filed

Court of Appeal, Second Appellate District, Division One - No. B295836 SEP 3 0 2020
Jorge Navarrete Clerk

S263334

IN THE SUPREME COURT OF CALIFORNIA
■

En Banc
GUILLERMINA AGUILAR, Plaintiff and Appellant,
v. ..
SPECIALIZED LOAN SERVICING, LLC, et al., Defendants and Respondents.
The petition for review is denied.

CANTIL-SAKAUYE

ChiefJustice

Deputy

